Audit
Report
         AUTOMATION OF THE DOD EXPORT LICENSE
             APPLICATION REVIEW PROCESS


Report No. D-2002-039                 January 15, 2002



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

DTSA                  Defense Technology Security Administration
FORDTIS/TPS           Foreign Disclosure and Technical Information
                         System/Technology Protection System
SIPRNET               Secret Internet Protocol Router Network
USASAC                U.S. Army Security Assistance Command
USXPORTS              U.S. Export Systems
                       Office of the Inspector General, DoD
Report No. D-2002-039                                                  January 15, 2002
   (Project No. D2001LG-0087)

                    Automation of the DoD Export License
                        Application Review Process

                                Executive Summary

Background. Public Law 106-65, National Defense Authorization Act for Fiscal
Year 2000, section 1402, “Annual Report on Transfers of Militarily Sensitive
Technology to Countries and Entities of Concern,” October 5, 1999, requires that the
Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director, Central Intelligence Agency, and the Director, Federal
Bureau of Investigation, conduct annual interagency reviews of the transfer of militarily
sensitive technologies to countries and entities of concern.

The United States controls the export of certain goods and technologies for national
security, foreign policy, or nonproliferation reasons. Industry applies for export
licenses through the Department of Commerce (Commerce) for dual-use items and the
Department of State (State) for munitions items. Commerce and State may provide a
U.S. Government position on the applications received or they may refer license
applications to the Defense Technology Security Administration for technical reviews.
The Defense Technology Security Administration is the principal DoD Component for
providing DoD positions on export license applications to Commerce and State. When
the Defense Technology Security Administration receives a license application, it either
prepares a position or refers the license application to the Military Departments or other
DoD Components to perform a technical analysis of the application. The Defense
Technology Security Administration prepares a position based on the technical analysis
and returns the application with the DoD position to Commerce or State, as applicable.
The U.S. Exports Systems Interagency Program Management Office was established in
May 2000 to provide Federal export licensing authorities an interagency automated
system for conducting comprehensive and timely reviews.

Objectives. The overall audit objective was to determine whether Federal automation
programs supporting the export license and review process could be used to establish a
common electronic interface creating an automated interagency export licensing system
in accordance with Federal policies and regulations. This report addresses the DoD
portion of automating the export license review process for dual-use items and
munitions items. Specifically, we reviewed the export license application process; the
review processes of the Military Departments and other DoD Component commands;
and the functionality of existing DoD automated systems. We will address the DoD
involvement in the overall automation effort and the effect of DoD involvement on
other U.S. governmental agencies in a subsequent interagency report. We also
reviewed the management control program as it related to the overall objective.

Results. The DoD export license application review process is paper driven and
requires export license applications and supporting documentation to be repeatedly
copied, reviewed, and shipped from and to numerous locations. As a result, the
Military Departments and other DoD Components have implemented individual
automated systems to reduce the paperwork burden and increase the efficiency of the
export license dissemination and review process, which may prevent the U.S. Export
Systems Interagency Program Management Office from fully achieving its goal to
provide Federal export licensing authorities an interagency automated system. See the
Finding section for a discussion of the audit results.

The management controls that we reviewed were effective in that no material
management control weakness was found. See Appendix A for details on our review of
the management control program.

Summary of Recommendations. We recommend that the Deputy Under Secretary of
Defense (Policy Integration) assess whether to accept export license applications and
supporting documents in electronic form, assess whether to engage in electronic
transactions to support the export licensing process, and determine the information
security practices and management controls that are required to ensure information
security. We recommend that the Deputy Under Secretary, based on those assessments
and the security determination, develop a plan to automate the DoD export license
dissemination and review process to ensure that the technical experts within the Military
Departments and DoD Components have access to the system. We also recommend
that the Deputy Under Secretary perform an analysis of multiple concepts to determine
whether existing automation options can be used in developing a DoD-wide export
license dissemination and review automated system. Finally, we recommend that the
Deputy Under Secretary verify that the planned automation of the DoD export license
review process will have connectivity with the U.S. Export Systems interagency
efforts.

Management Comments. The Deputy Under Secretary of Defense
(Policy Integration) concurred with the recommendations, stating that DoD is
committed to addressing Government Paperwork Elimination Act requirements; that a
plan to automate the dissemination and review of export licenses has been developed
and is being staffed to ensure technical experts within the Military Departments and
DoD Components have access; that a variety of alternative approaches are being
considered; and that the DoD export license review process will have connectivity to
the U.S. Export Systems Interagency Program Management Office. A discussion of
management comments is in the Finding section of the report and the complete text is in
the Management Comments section.




                                           ii
Table of Contents

Executive Summary                                              i


Introduction
     Background                                               1
     Objectives                                               3

Finding
     DoD Automation of Export License Application Reviews     4

Appendixes
     A. Audit Process
         Scope                                                15
         Methodology                                          16
         Management Control Program Review                    16
     B. Prior Coverage                                        18
     C. Export License Applications Processed by DoD          20
     D. Report Distribution                                   21

Management Comments
     Deputy Under Secretary of Defense (Policy Integration)   23
Background
            Public Law 106-65, National Defense Authorization Act for Fiscal Year 2000,
            section 1402, “Annual Report on Transfers of Militarily Sensitive Technology
            to Countries and Entities of Concern,” October 5, 1999, requires that the
            Inspectors General of the Departments of Commerce, Defense, Energy, and
            State, in consultation with the Director, Central Intelligence Agency, and the
            Director, Federal Bureau of Investigation, conduct annual interagency reviews
            of the transfer of militarily sensitive technologies to countries and entities of
            concern. To comply with the first-year requirement of the Act, the Offices of
            the Inspectors General conducted an interagency review of Federal agency
            compliance with the deemed export licensing requirements contained in the
            Export Administration Regulations and the International Traffic in Arms
            Regulations. To comply with the second-year requirement of the Act, the
            Offices of the Inspectors General conducted an interagency review of the
            Federal agency reviews and revisions of the Commerce Control List and the
            U.S. Munitions List. To comply with the third-year requirement of the Act, the
            Offices of the Inspectors General are conducting an interagency review of
            Federal automation programs supporting the export licensing and review
            process.

            Federal Export License Application Process. The United States controls the
            export of certain goods and technologies for national security, foreign policy, or
            nonproliferation reasons. Industry applies for export licenses through the
            Department of Commerce (Commerce) for dual-use items1 and the Department
            of State (State) for munitions items. Commerce and State may provide a
            U.S. Government position on the applications received or they may refer license
            applications to DoD for technical reviews.

            Under Secretary of Defense for Policy. The Under Secretary of Defense for
            Policy is ultimately responsible for the DoD export license review process. On
            August 31, 2001, the Deputy Secretary of Defense announced the
            reestablishment of the Defense Technology Security Administration (DTSA)2 in
            the Office of the Under Secretary of Defense for Policy. DTSA is the principal
            DoD Component for providing DoD positions3 on export license applications to
            Commerce and State. The Deputy Under Secretary of Defense (Policy
            Integration), also within the Office of the Under Secretary of Defense for
            Policy, is responsible for the Foreign Disclosure and Technical Information
            System/Technology Protection System (FORDTIS/TPS) used by DoD to support
            export controls and for the U.S. Export Systems (USXPORTS) Interagency
            Program Management Office, an interagency effort to create a Federal export
            licensing system.


1
    Dual-use items are goods or technologies that have both civilian and military application.
2
    Prior to August 31, 2001, DTSA was the Defense Threat Reduction Agency, Technology Security
    Directorate. For the purposes of this report, DTSA is used for the current and former names.
3
    The DoD position represents the recommendation that DoD is making on whether the export license
    should be approved.



                                                      1
                   Defense Technology Security Administration. After receiving export
           license applications referred from Commerce or State, DTSA enters summary
           export license application information into FORDTIS/TPS. DTSA will then
           provide a DoD position based on its own expertise and past historical positions
           or designate a Military Department or component command to perform a
           technical analysis. Designated offices within the Military Departments and
           component commands further disseminate the license applications and after
           receiving technical analyses enter recommended DoD positions into
           FORDTIS/TPS. DTSA enters the final DoD position into FORDTIS/TPS.
           During FY 2000, DTSA processed 23,979 export license applications.

                   FORDTIS/TPS. The Policy Automation Directorate, Deputy Under
           Secretary of Defense (Policy Integration), is the responsible DoD Component
           for FORDTIS/TPS.4 FORDTIS/TPS is a Secret-level classified system that is
           the primary automated system used by DoD to assist decision makers and
           analysts in reviewing, coordinating, and reaching decisions on proposals to
           release sensitive military information and technology to other nations and
           international organizations. FORDTIS/TPS contains historical information on
           past export license applications, DoD and U.S. Government positions on
           previous cases, and a brief synopsis of current export license applications.
           FORDTIS/TPS was not designed to disseminate technical documentation.
           FORDTIS/TPS was one of four operating systems within the Security Policy
           Automation Network. In addition to FORDTIS/TPS, the other systems are the
           National Disclosure Policy System, the U.S. Visits System, and the Classified
           Military Information System.

                   U.S. Export Systems Automation Initiative. The goal of the
           USXPORTS Interagency Program Management Office is to provide Federal
           export licensing authorities an interagency automated system for conducting
           comprehensive and timely reviews. The USXPORTS Interagency Program
           Management Office, established in May 2000, was planning methods for
           establishing electronic connectivity between industry and the Government with
           emphasis on Commerce, DoD, and State. The Deputy Secretary of Defense
           authorized Program Budget Decision 289, which provided $30 million funding
           for the USXPORTS automation initiative. Included as part of the USXPORTS
           automation initiative objective, in compliance with Public Law 105-277,
           “Government Paperwork Elimination Act,” October 21, 1998 (the Government
           Paperwork Elimination Act), is the elimination of paper where possible by
           substituting electronic data exchange, providing standard user interfaces for
           electronic submission and review of license applications, and reducing repetitive
           submission of technical data by industry.




4
    In FY 2001, FORDTIS was upgraded and its subsystems were separated into individual function groups.
    TPS supports the part of FORDTIS pertaining to export license reviews and, for the purpose of this
    report, we refer to the system as FORDTIS/TPS.


                                                    2
Objectives
     The overall audit objective was to determine whether Federal automation
     programs supporting the export licensing and review process could be used to
     establish a common electronic interface creating an automated interagency
     export licensing system in accordance with Federal policies and regulations.
     Specifically, in coordination with other Federal agencies, the audit objective was
     to determine whether responsible program offices, or other responsible officials,
     ensured that the planned development and acquisition of an interagency export
     licensing system translated operational requirements into a system solution that
     balanced system cost, implementation schedule, performance, and risk.

     This report addresses the DoD portion of automating the export license review
     process for dual-use items and munitions items. Specifically, we reviewed the
     export license application process; the review processes of the Military
     Departments and other DoD Component commands; and the functionality of
     existing DoD automated systems. The DoD involvement in the overall
     automation effort and the effect of DoD involvement on other
     U.S. governmental agencies will be addressed in a subsequent interagency
     report. See Appendix A for a discussion of audit scope and methodology and
     the management control program. See Appendix B for prior coverage related to
     the objectives.




                                        3
           DoD Automation of Export License
           Application Reviews
           The DoD export license application review process is paper driven and
           requires export license applications and supporting documentation to be
           repeatedly copied, reviewed, and shipped from and to numerous
           locations. FORDTIS/TPS, the DoD export control system, was not
           designed to disseminate export license applications and associated
           technical documentation, and the system operates on a classified
           communication network that has limited accessibility. In addition, the
           Deputy Under Secretary of Defense (Policy Integration) had not
           performed an assessment weighing the costs and benefits of automating
           the export license application review process or performed an
           appropriate risk analysis in accordance with the Government Paperwork
           Elimination Act. As a result, the Military Departments and other DoD
           Components have implemented individual automated systems to reduce
           the paperwork burden and increase the efficiency of portions of the DoD
           export license dissemination and review process, which may prevent the
           USXPORTS Interagency Program Management Office from fully
           achieving its goal to provide Federal export licensing authorities an
           interagency automated system.


Automation and Export Control Guidance
    Government Paperwork Elimination Act. The Government Paperwork
    Elimination Act requires Federal agencies “to allow individuals, or entities that
    deal with the Federal agencies, the option to submit information or transact with
    the agency electronically, when practicable, and to maintain records
    electronically, when practicable.” In addition, the Government Paperwork
    Elimination Act requires that, by October 21, 2003, when practicable, Federal
    agencies use electronic forms, electronic filing, and electronic signatures to
    conduct official business with the public.

    DoD Directive 2040.2. DoD Directive 2040.2, “International Transfers of
    Technology, Goods, Services, and Munitions,” January 17, 1984, implements
    relevant portions of the Export Administration Act of 1979, as amended
    (title 50, United States Code, appendix section 2401, et seq.) and the Arms
    Export Control Act (title 22, United States Code, section 2751). DoD
    Directive 2040.2 provides DoD policies and procedures on the transfer of
    technologies, goods, services, and munitions to foreign governments. The
    directive also requires the Under Secretary of Defense for Policy to develop and
    maintain comprehensive reference databases on goods, munitions, services, and
    technology transfer matters that are accessible by all DoD Components.
    Currently, the Office of the Deputy Under Secretary of Defense (Policy
    Integration) has that responsibility.

    DoD Instruction 5230.18. DoD Instruction 5230.18, “The DoD Foreign
    Disclosure and Technical Information System (FORDTIS),” November 6, 1984,


                                        4
           establishes the policy, responsibilities, and procedures for the implementation of
           FORDTIS. DoD Instruction 5230.18 requires DoD organizations to use
           FORDTIS/TPS for “staffing and recording of cases, and providing reference
           data support in fulfilling departmental responsibilities” that support export
           control laws and policies.


DoD Export License Application Review Automation
           The DoD export license application review process is paper driven and requires
           export license applications and supporting documentation to be repeatedly
           copied, reviewed, and shipped from and to numerous locations. Military
           Departments and component commands either fax or hand deliver export license
           applications and supporting technical documentation to commands designated to
           perform technical analyses. USXPORTS Interagency Program Management
           Office “Preliminary Economic Analysis,” September 22, 2000, states that DoD
           spends more than $1,700,000 copying export license documentation and more
           than $343,000 delivering that documentation to commands performing technical
           analyses. In addition, during FY 2000, according to estimates 5 in the analysis,
           DoD produced about 43.6 million pages of paper copies of the export license
           applications and supporting documentation received from Commerce and State.

           DTSA. During FY 2000, DTSA received 9,302 dual-use export license
           applications from Commerce and 14,677 munitions export license applications
           from State. DTSA averaged 11 days to review dual-use export license
           applications and respond back to Commerce and 20 days to review munitions
           export license applications and respond back to State. DTSA manually entered
           pertinent information6 from the export license applications into FORDTIS/TPS.
           DTSA reviewed the applications received and provided a DoD position on the
           applications based on its own expertise or disseminated the applications to the
           Military Departments or other DoD Components to receive expert technical
           analysis upon which to base a DoD position. The table in Appendix C shows
           the number of export license applications received in FY 2000 by DTSA and
           further disseminated to other DoD elements through the Military Departments,
           the Joint Staff, and the Defense Intelligence Agency.

           Army. The U.S. Army Security Assistance Command (USASAC) Office for
           International Industrial Cooperation is responsible for the dissemination and
           review of export license applications within the Army. The Army used the
           FORDTIS/TPS system to receive summary export license application data from
           DTSA and to provide the Army position back to DTSA. The Army did not
           disseminate export license applications through FORDTIS/TPS because the
           system was incapable of transmitting the actual technical data that accompanies

5
    The Preliminary Economic Analysis estimates that DoD produces an average of three copies for
    technical documentation accompanying each application. The analysis estimates that technical
    documentation averages about 400 pages for a dual-use license application and about 800 pages for a
    munitions license application.
6
    Information such as the company name, description of item proposed to be exported, assigned action
     officer or organization, and comments.



                                                     5
most license applications and, in most cases, the technical experts did not have
access to FORDTIS/TPS. During FY 2000, USASAC received 3,933 export
license applications from DTSA and averaged about 14 days to respond.
USASAC personnel met daily to review the applications received and to
determine whether any technical experts should provide further reviews. Of the
3,933 applications received, about 75 percent were disseminated further to
technical experts at various Army commands. USASAC primarily used courier
service and fax to disseminate export license applications to technical experts for
review. The cost for delivering applications to technical experts in FY 2000
was about $18,000.

Navy. The Navy International Programs Office is responsible for the
dissemination and review of export license applications within the Navy. The
Navy used the FORDTIS/TPS system to receive summary export license
application data from DTSA and to provide the Navy position back to DTSA.
The Navy did not disseminate export license applications through
FORDTIS/TPS because the system was incapable of transmitting the actual
technical data that accompanies most license applications and the technical
experts did not have access to FORDTIS/TPS. During FY 2000, the Navy
received 5,854 export license applications from DTSA and averaged about
19 days to respond for dual-use licenses and 14 days to respond for munitions
licenses. Of the 5,854 applications received, about 25 percent were
disseminated further to various Navy commands. The Navy primarily used
courier service and fax to disseminate export license applications to technical
experts for review. The cost for delivering applications to technical experts was
not determinable.

Air Force. The Office of the Deputy Under Secretary of the Air Force
(International Affairs) is responsible for the dissemination and review of export
license applications within the Air Force. The Air Force used the
FORDTIS/TPS system to receive summary export license application data from
DTSA and to provide the Air Force position back to DTSA. The Air Force did
not disseminate export license applications through FORDTIS/TPS because the
system was incapable of transmitting the actual technical data that accompanies
most license applications. The Air Force viewed recommending positions on
export license applications as primarily a policy decision rather than a
technology decision and, therefore, did not disseminate many cases to technical
experts at Air Force component commands. During FY 2000, the Air Force
received 5,829 export license applications from DTSA and averaged about
10 days to respond. The Office of the Deputy Under Secretary of the Air Force
for International Affairs staffed approximately 15 percent of the license
applications it received from DTSA to other Air Force commands, primarily to
the Office of the Assistant Secretary of the Air Force (Acquisition), which
contracted for support to review the export license applications. Because the
Air Force did not disseminate many export license applications, the shipping
costs were negligible.

Joint Staff. The Weapon Technology Control Division, Joint Staff, is
responsible for the dissemination and review of export license applications




                                     6
           within the Joint Staff and the geographical unified commands.7 The Joint Staff
           used the FORDTIS/TPS system to receive summary export license application
           data from DTSA and to provide the Joint Staff position back to DTSA. The
           Joint Staff did not disseminate export license applications through
           FORDTIS/TPS because the system was incapable of transmitting the actual
           technical data that accompanies most license applications. However, the Joint
           Staff had evolved its export license application dissemination and review process
           from a paper driven environment to an automated environment. During
           FY 2000, the Joint Staff received 665 export license applications from DTSA
           and averaged about 10 days to respond. Of the 665 applications received, about
           86 percent were scanned and electronically disseminated further to technical
           experts at the unified commands. Because the Joint Staff uses an automated
           system to disseminate export license applications, the Joint Staff did not incur
           shipping costs for export license applications.

           Defense Intelligence Agency. The Advanced Technologies/Technology
           Transfer Division, Technology Assessment Group, Directorate for Analysis and
           Production, Defense Intelligence Agency, is responsible for the dissemination
           and review of export license applications within the Defense Intelligence
           Agency. The Defense Intelligence Agency used the FORDTIS/TPS system to
           receive summary export license application data from DTSA and to provide the
           Defense Intelligence Agency position back to DTSA. The Defense Intelligence
           Agency did not refer license applications to other Defense Intelligence
           components for technical analyses. During FY 2000, the Defense Intelligence
           Agency received 2,548 export license applications. Its response times averaged
           about 3 days for dual-use items and 30 days for munitions items. The export
           license applications were reviewed by Defense Intelligence Agency analysts.
           The paper export license applications were distributed to technical experts
           within the agency. A senior intelligence analyst at the Defense Intelligence
           Agency stated that on occasion, for munitions items, they have waited 1 to
           2 weeks to receive hard copies of technical information from DTSA after seeing
           that they had been assigned an application for review in FORDTIS/TPS. The
           technical review of the export license application did not begin until the
           technical information had been received. Because the Defense Intelligence
           Agency did not disseminate export license applications to other components, it
           did not incur shipping costs.


DoD Export License Dissemination and Review Capability
           FORDTIS/TPS, the DoD export control system, was not designed to
           disseminate export license applications and associated technical documentation,
           and the system operates on a classified communication network that has limited
           accessibility. FORDTIS/TPS was designed as a management information
           system and did not have the capability to transmit technical documentation that
           accompanies most export license applications. In addition, the Deputy Under
           Secretary of Defense (Policy Integration) had not performed an assessment


7
    The geographical unified commands are the U.S. European Command, the U.S. Pacific Command, the
    U.S. Joint Forces Command, the U.S. Southern Command, and the U.S. Central Command.



                                                 7
           weighing the costs and benefits of automating the DoD export license
           application review process or performed an appropriate risk analysis in
           accordance with the Government Paperwork Elimination Act.

           System Design. Although DoD Instruction 5230.18 requires DoD organizations
           to use FORDTIS/TPS to support export control policies, the system was not
           designed for the dissemination and review of export license applications to
           DoD technical experts. Specifically, FORDTIS/TPS was designed to provide
           high level oversight and to serve as a historical database of U.S. Government
           positions on past export license applications. As a result, FORDTIS/TPS did
           not have the capability to provide DoD technical experts a complete copy of the
           export license application or a copy of the supporting technical documentation.

           System Accessibility. FORDTIS/TPS operates on the Secret Internet Protocol
           Router Network (SIPRNET), a classified communication network. Technical
           experts who perform export license reviews rarely have access to
           FORDTIS/TPS8 and do not have readily available access to the SIPRNET. As
           of October 2001, there were a total of about 160 FORDTIS/TPS sites, usually
           one site per base, with the FORDTIS/TPS terminal being located in the foreign
           disclosure office.

           The Director, Policy Automation Directorate, Office of the Deputy Under
           Secretary of Defense (Policy Integration) stated that it was not economically
           feasible to provide SIPRNET access to technical experts to perform export
           license reviews. The Policy Automation Directorate and the USXPORTS
           Interagency Program Management Office estimated that to provide SIPRNET
           capability to the technical experts, to include the required hardware,
           infrastructure, and software for workstations with SIPRNET, would cost
           approximately $30,000 per workstation. The full impact of the cost to provide
           SIPRNET access could not be determined, as there are numerous technical
           experts located throughout the country. For example, the Army Aviation and
           Missile Command distributed export license applications to 42 separate
           addresses that represented both technical experts and program offices. That
           command estimated that more than 100 technical experts who are requested to
           conduct technical analyses on export license applications are within the Army
           Aviation and Missile Command alone. Therefore, because of cost, providing
           SIPRNET access to all technical experts was an impractical solution for
           distributing license applications and supporting technical documentation.

           Government Paperwork Elimination Act Requirements. The Deputy Under
           Secretary of Defense (Policy Integration) had not performed an assessment
           weighing the costs and benefits of automating the DoD export license
           application review process or performed an appropriate risk analysis in
           accordance with the Government Paperwork Elimination Act. The intensive
           paperwork burden related to business-to-Government and Government-to-

8
    The Inspector General, DoD, previously reported on the lack of access to FORDTIS/TPS by DoD
    officials performing export license reviews in Inspector General, DoD, Report No. 99-186, “Review of
    the DoD Export Licensing Processes for Dual-Use Commodities and Munitions,” June 18, 1999, as
    well as in Interagency Report No. 99-187, “Interagency Review of the Export Licensing Processes for
    Dual-Use Commodities and Munitions,” June 18, 1999.


                                                     8
           Government transactions in support of the export licensing and review process
           necessitates that DoD consider automating the process. Although the
           Government Paperwork Elimination Act requires Federal agencies to use
           electronic forms by October 2003, the Office of Management and Budget
           Memorandum M-00-10, “OMB Procedures and Guidance on Implementing the
           Government Paperwork Elimination Act,” April 25, 2000, requires that an
           assessment of using and accepting documents in electronic form and engaging in
           electronic transactions be completed by October 2000. The memorandum
           outlines the process by which agencies should conduct an assessment, including
           weighing the costs and benefits of automating the process and performing an
           appropriate risk analysis. Included as part of the risk analysis, agencies should
           indicate the security practices, authentication technologies, management
           controls, or other business processes that would be practicable. If a particular
           part of the process being considered for automation is not practicable for
           conversion to electronic interaction, agencies should explain the reasons and
           report any strategy to make such a conversion possible. However, as of
           October 2001, the Deputy Under Secretary had not performed such an
           assessment.


DoD Automation Efforts and USXPORTS Goals
           The Military Departments and other DoD Components have implemented
           individual automated systems to reduce the paperwork burden and increase the
           efficiency of portions of the DoD export license dissemination and review
           process, which may prevent the USXPORTS Interagency Program Management
           Office from fully achieving its goal to provide Federal export licensing
           authorities an interagency automated system. Through close cooperation with
           the USXPORTS Interagency Program Management Office, the Military
           Departments and other DoD Components can ensure future DoD systems
           supporting the export license review process work together seamlessly.

           Automation Efforts. To improve the export license review process, Military
           Departments, the Joint Staff, and DoD Component commands were either
           studying automation options or had implemented various degrees of automation
           efforts. The Navy was studying the use of information technology for obtaining
           and disseminating technical documentation and the Air Force, in collaboration
           with the USXPORTS Interagency Program Management Office, had contracted
           for development of the Secure Air Force Export Data System.9 The Joint Staff
           and the Army Aviation and Missile Command had automated the further
           dissemination and review of the applications and associated technical
           documentation after receipt of the documentation from DTSA. The Joint Staff
           and the Army Aviation and Missile Command found that automating portions of
           the process by relatively simple methods significantly reduced processing time
           and support personnel. Automation of the distribution of export license
           applications and technical data throughout DoD would improve customer service


9
    USXPORTS Contract 263-96-D-0327, task 3 (Integration Services), task order tracking no. C-1799,
    to provide project management and technical expertise in support of the Disclosure Division, Deputy
    Under Secretary of the Air Force for International Affairs.



                                                     9
and governmental efficiency through the use of information technology. In
addition, the Deputy Under Secretary of Defense (Policy Integration) should
conduct an “analysis of multiple concepts” to determine whether the existing
systems could be used in developing a DoD-wide automated export license
dissemination and review system.

        Navy Initiatives. As of September 2001, the Navy International
Programs Office was studying the use of Internet web hosting to obtain technical
documentation from industry and to disseminate that information to other
commands in a more efficient manner. If successful, the initiative would reduce
the delays of industry mailing additional information to Navy commands and
allow Navy commands to review technical information compiled by the exporter
in a database accessed over the Internet. The initiative addresses the distribution
of technical documentation, but does not eliminate the dissemination of actual
export license applications from DTSA to the Navy International Programs
Office or from the Navy International Programs Office to other Navy
commands. In addition, the initiative does not address processing those
applications that contain classified information.

        Air Force Initiatives. In July 2001, the Air Force, in collaboration with
the USXPORTS Interagency Program Management Office, contracted for the
development of the Secure Air Force Export Data System, a pilot program to
develop and implement an unclassified web-based system that will enable the
rapid electronic dissemination of Air Force export license applications and
supporting technical documentation. The system will facilitate direct staffing of
export license applications and technical documentation to all applicable Air
Force elements; allow components to perform analysis and research of export
license applications; and aid in the archiving of all assigned licenses and their
final dispositions within the Air Force. The effort is a cost-plus-fixed-fee
contract with an estimated value of $160,000, including the cost of hardware,
software, and software development. The system, if implemented as
envisioned, could achieve the objective for Air Force commands to operate in a
near paperless environment when reviewing export license applications, similar
to the methods already used by the Joint Staff. However, the initiative does not
address processing those applications that contain classified information.
        Joint Staff. The Joint Staff used the Joint Tracking Retrieval and
Control System, an automated export license dissemination system, to distribute,
review, and track the status of export license applications. The Joint Tracking
Retrieval and Control System was internally developed by the Joint Staff. The
system is wholly owned by the Federal Government and uses Microsoft Office
products. To automate the export license review process, the Joint Staff
scanned hard copies of export license applications and supporting technical
documentation it received from DTSA to a Joint Staff secure web site that uses
SIPRNET. The Joint Staff either provided its position on an application at that
time or disseminated an application to the appropriate geographical unified
command. The various geographical unified commands reviewed the
applications through the web site on SIPRNET. The geographical unified
commands had a version of the Joint Tracking Retrieval and Control System.
The unified commands used their version of the Joint Tracking Retrieval and
Control System to review the license applications and submit their position back
to the Joint Staff. Because the infrastructure exists for the Joint Tracking

                                    10
Retrieval and Control System to operate completely in a classified environment,
technical experts at the Joint Staff and the unified commands all operated in one
classification domain and all had access to SIPRNET. Although the Joint Staff
relies on SIPRNET for its dissemination of information, the Joint Tracking
Retrieval and Control System could be used with the Non-Secure Internet
Protocol Routing Network. The Joint Tracking Retrieval and Control System is
a useful automated system that reduces paperwork burdens and increases the
efficiency of export license dissemination.

        The Joint Staff credited its automated system with giving the Joint Staff
the ability to provide its position on an export license application to DTSA
within 8 working days and allowing the technical experts enough time to
thoroughly review the applications. The system provided the Joint Staff an
effective management tool for disseminating, reviewing, and managing export
license applications within the unified commands. Officials from the Joint Staff
stated that receiving export license applications electronically from DTSA would
further improve their processing time.

        Army Aviation and Missile Command. The Army Aviation and
Missile Command had not developed a complete system, but did implement its
own initiative to facilitate the dissemination of export license applications to
technical experts residing in component commands that are located throughout
widely dispersed areas at Redstone Arsenal. However, the Army Aviation and
Missile Command did not process those license applications that contained
classified information on the system. Specifically, the Army Aviation and
Missile Command procured a high-speed scanner to convert the unclassified
hard copy export license applications and associated technical documentation
into an electronic format. The electronic format was distributed via unclassified
e-mail to approximately 42 program offices or functional technical experts
located throughout the command. The 42 program offices distributed the
license applications to functional groups that usually consisted of four or five
technical experts representing technical expertise on a single component of a
weapons platform. The most qualified technical expert conducted the export
license review. The Army Aviation and Missile Command reduced its response
time from 14 working days to 5 working days.

        Analysis of Multiple Concepts. The Deputy Under Secretary of
Defense (Policy Integration) should conduct an “analysis of multiple concepts”
to determine whether the existing systems could be used in developing a
DoD-wide automated system for dissemination and review of export license
applications. DoD Regulation 5000.2-R, “Mandatory Procedures for Major
Defense Acquisition Programs (MDAPS) and Major Automated Information
Systems (MAIS) Acquisition Programs,” June 10, 2001, states that the analysis
of multiple concepts is a process of looking at reasonable concepts and selecting
those that are most likely to satisfy the need at a cost, and on a schedule, that
are acceptable to the user. The analysis of multiple concepts should include an
analysis of a DoD export license dissemination and review system that uses
existing systems.

USXPORTS Goals. The USXPORTS Interagency Program Management
Office may not fully achieve its goal to provide Federal export licensing
authorities an interagency automated system for conducting comprehensive and


                                   11
    timely export license application reviews. The USXPORTS Interagency
    Program Management Office is in the process of developing an interagency
    system designed to overhaul and modernize the U.S. export license review
    process and to produce business-to-Government and Government-to-Government
    electronic capabilities. However, the USXPORTS Business Plan does not
    specify procedures for disseminating export license applications to DoD
    Components but indicates that export license applications are disseminated to the
    Military Departments and component commands using FORDTIS/TPS. The
    USXPORTS plan does not consider that DoD technical experts do not have
    readily available access to classified systems, such as FORDTIS/TPS, or to
    classified network communications, such as SIPRNET. In addition, the
    USXPORTS plan relies on all systems connected in an export licensing system
    having one classification domain and does not explore alternatives, such as
    handling applications containing classified information separately from the
    applications that do not contain classified information. The USXPORTS
    Interagency Program Management Office estimated that about 95 percent of the
    export license applications received by DTSA are unclassified.


Conclusion
    In 1995, prior to passage of the Paperwork Elimination Act, Public
    Law 104-13, “Government Paperwork Reduction Act,” May 22, 1995, was
    passed. Although it contains few specific agency requirements, the Government
    Paperwork Reduction Act promotes the use of information technology to
    improve the productivity, efficiency, and effectiveness of Federal programs and
    interagency information technology initiatives to enhance agency performance
    and the accomplishment of agency missions. The purpose of the Government
    Paperwork Reduction Act is to minimize the paperwork burden for individuals,
    small businesses, educational and nonprofit institutions, Federal contractors,
    State and local governments, and other persons resulting from the collection of
    information by or for the U.S. Government. The Government Paperwork
    Reduction Act provides the basis for many of the requirements contained in the
    Government Paperwork Elimination Act. The purpose of both Acts is to
    improve the productivity, efficiency, and effectiveness of processes, such as the
    DoD export license review process, that are paper driven and can be improved
    with the use of information technology to minimize DoD and industry
    paperwork burdens.

    Converting from the DoD paper driven process to an automated system for the
    dissemination and review of export license applications will provide DoD a
    more efficient method of performing export license reviews and reduce the
    paperwork burdens associated with such reviews. In addition, by automating
    the export license dissemination and review process, DoD can avoid
    unnecessary costs of approximately $2 million per year by reducing the amount
    of copying and delivering export license applications and associated
    documentation. DoD needs to consider automating its export license review
    processes to relieve the Military Departments and DoD Components of the
    burden associated with a paper driven process.




                                       12
Management Comments on the Finding and Audit Response
    Management Comments. Although we directed the draft report to the Deputy
    Under Secretary of Defense (Policy Support), the Office of the Deputy Under
    Secretary of Defense (Policy Integration) responded, noting that his organization
    is responsible for the USXPORTS program and the Technology Protection
    System. The Director of Policy Automation in the Office of the Deputy Under
    Secretary of Defense (Policy Integration) stated that this report had a strong
    theme that DoD should be responsible for the initial automation of technical and
    license data, when the Departments of Commerce and State actually have that
    responsibility. The Director also commented on the finding paragraph statement
    in the draft report that “the Deputy Under Secretary of Defense (Policy Support)
    had not performed an assessment weighing the costs and benefits of automating
    the export license application review process,” stating that the USXPORTS
    Interagency Program Management Office had in fact done an assessment. In
    addition, the Director stated that there is another theme throughout the report
    that assumes export licenses should be processed as unclassified information
    within DoD, a policy he feels is questionable. The Director also suggested
    minor corrections to the draft report. See the Management Comments section
    for the complete text of his comments.

    Audit Response. As a result of management comments, we redirected the
    report from the Deputy Under Secretary of Defense (Policy Support) to the
    Deputy Under Secretary of Defense (Policy Integration). The Office of the
    Deputy Under Secretary of Defense (Policy Integration) has the responsibility to
    assess whether DoD should accept license applications and supporting
    documents in electronic form, whether DoD should engage in electronic
    transactions to support the export licensing process, and to determine the
    information security practices and management controls that DoD requires to
    ensure information security. In contrast to the Policy Automation Director’s
    statements, at the time of our audit, the USXPORTS Interagency Program
    Management Office had assessed initial automation of technical and license data,
    but had not conducted a comprehensive assessment of automating the
    DoD portion of the export licensing process. The question of handling export
    license data has been answered by the Deputy Under Secretary of Defense
    (Technology Security Policy and Counter-Proliferation), who approved on
    December 14, 2001, the decision to treat unclassified export license data as
    extremely sensitive but unclassified data, with no security classification based on
    information compilation. Classified export license data will continue to be
    stored on a classified system and marked appropriately.

Recommendations and Management Comments
    We recommend that the Deputy Under Secretary of Defense (Policy
    Integration):

          1. In accordance with Office of Management and Budget
    Memorandum M-00-10, “OMB Procedures and Guidance on Implementing
    the Government Paperwork Elimination Act,” assess whether to accept


                                        13
export license applications and supporting documents in electronic form,
assess whether to engage in electronic transactions to support the export
licensing process, and determine the information security practices and
management controls that are required to ensure information security.

Management Comments. The Director, Policy Automation, concurred, stating
that FORDTIS/TPS meets Government Paperwork Elimination Act and
Government Performance and Results Act requirements. The USXPORTS
Interagency Program Office is committed to addressing those requirements in
the interagency arena, including achieving that portion of the recommendation
pertaining to determining security practices and management controls that are
required to ensure information security.

       2. Based on the results of the assessments and security
determination performed in response to Recommendation 1., develop a plan
to automate the DoD export license dissemination and review process to
ensure that the technical experts within the Military Departments and DoD
Components have access to the system.

Management Comments. The Director, Policy Automation, concurred, stating
that a plan to automate the dissemination and review process has been developed
and is being staffed to ensure that, to the maximum extent possible, the technical
experts in the Military Departments and DoD Components have access to the
system.

       3. Perform an analysis of multiple concepts to determine whether
existing automation options can be used in developing a DoD-wide
automated system for the dissemination and review of export licenses.

Management Comments. The Director, Policy Automation, concurred, stating
that in complying with Program Budget Decision 289, the Clinger-Cohen Act,
and DoD Regulation 5000.2, a variety of alternative approaches and concepts
are being considered.

       4. Verify that the planned automation of the DoD export license
review process will have connectivity with the automation efforts of the
U.S. Export Systems Interagency Program Management Office.

Management Comments. The Director, Policy Automation, concurred, stating
that the Office of the Under Secretary of Defense for Policy has gone to
extraordinary lengths in providing staff and oversight to ensure the planned
automation of the DoD export license review process will have connectivity with
the automation efforts of the USXPORTS Interagency Program Management
Office.




                                    14
Appendix A. Audit Process

Scope
    This is one in a series of reports being issued by the Inspector General, DoD, in
    accordance with the National Defense Authorization Act for Fiscal Year 2000,
    section 1402, which requires an annual report on the transfer of militarily
    sensitive technology to countries and entities of concern.

    We reviewed the export license application review processes for dual-use items
    and munitions items; the specific review processes of the Military Departments
    and other DoD Components; and the functionality of existing DoD automated
    export control systems. The DoD involvement in the overall automation effort
    and the effect of DoD involvement on other U.S. governmental agencies will be
    addressed in a subsequent interagency report.

    Work Performed. We examined the DoD process of disseminating export
    license applications to DoD Components and the Military Departments to obtain
    technical reviews performed by technical experts. We analyzed the procedures
    used by the Army, the Navy, the Air Force, the Joint Staff, and the Defense
    Intelligence Agency to receive, review, and transmit their reviews of export
    license applications. In addition, we looked at FORDTIS/TPS; the Joint Staff’s
    Joint Tracking Retrieval and Control System; the Army’s export license tracking
    system; and the Air Force database program that assists in the management of
    export license applications. Also, we looked at security classification issues
    involving DoD export license dissemination and review.

    To accomplish this audit, we reviewed the current DoD system,
    FORDTIS/TPS, used for export license processing. We reviewed DoD and
    Military Department policies, regulations, and memorandums implemented
    during the period 1979 through 2000 pertaining to export licenses. Specifically,
    we reviewed the Arms Export Control Act; the Export Administration Act;
    Executive Order 12981, “Administration of Export Controls,” December 5,
    1995; Office of Management and Budget Memorandum M-00-10; Deputy
    Secretary of Defense Memorandum, “DoD Export License Review Process,”
    October 4, 1999; DoD Directive 2040.2; DoD Instruction 5230.18; DoD
    Regulation 5000.2-R; the Government Paperwork Elimination Act; and the
    Government Paperwork Reduction Act.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the DoD Systems
    Modernization high-risk area.




                                       15
Methodology
    We researched the DoD process for disseminating export license applications to
    technical reviewers at commands. We reviewed the systems and processes used
    in the business process for export license application reviews. On the basis of
    recommendations made by USASAC and the Navy International Programs
    Office, we visited technical experts at the Army Aviation and Missile Command
    and the Naval Air Systems Command. At each location, we interviewed the
    point of contact who received the applications initially and then we reviewed the
    procedures used by the locations to further disseminate the license applications
    and technical documentation to technical experts when necessary. We reviewed
    how the Military Departments and the DoD Components used FORDTIS/TPS in
    the export license review process.

    We conducted interviews with personnel at the Office of the Deputy Under
    Secretary of Defense (Policy Integration); the Joint Staff; the Defense
    Intelligence Agency; the DoD Deputy Chief Information Officer; DTSA; the
    USXPORTS Interagency Program Management Office; USASAC; the Navy
    International Programs Office; the Office of the Deputy Under Secretary of the
    Air Force (International Affairs); the Army Aviation and Missile Command; the
    Naval Air Systems Command; and Anteon Corporation. We interviewed
    technical experts at the Military Department component command level who
    perform technical analyses of export license applications.

    Use of Computer-Processed Data. We obtained data from FORDTIS/TPS; the
    Joint Tracking Retrieval and Control System; the export license tracking system;
    and the Air Force database program that processes export license applications.
    We did not review the general and application controls of those systems because
    we were reviewing the DoD export license application review process and not
    the data provided. The opinions and conclusions in this report were not based
    on the data produced by the systems; therefore, the evaluation of the controls
    was not necessary.

    Audit Type, Dates, and Standard. We performed this program audit from
    April through October 2001 in accordance with generally accepted government
    auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and industry. Further details are available upon
    request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of those controls.




                                       16
Scope of the Review of the Management Control Program. We reviewed the
adequacy of DTSA controls over the dissemination and review of export license
applications. Prior to August 31, 2001, the Defense Threat Reduction Agency
officials had identified export control and security policies as an assessable unit.
In September 2001, DTSA initiated a separate management control program.
Because we did not identify a material weakness, we did not assess the DTSA
self-evaluation.

Adequacy of Management Controls. DTSA management controls were
adequate in that we identified no material management control weaknesses.




                                    17
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office and the Inspector
    General, DoD, have conducted multiple reviews related to the adequacy of
    management controls over transfers of sensitive and critical DoD technology
    with potential military application to foreign nationals. Unrestricted General
    Accounting Office reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted Inspector General, DoD, reports can be
    accessed over the Internet at http://www.dodig.osd.mil/audit/reports. The
    following previous reports are of particular relevance to the subject matter in
    this report.


General Accounting Office
    General Accounting Office Report No. GAO-01-528, “Export Controls: State
    and Commerce Department License Review Times Are Similar,” June 2001

    General Accounting Office Report No. GAO/NSIAD-00-190R (OSD Case
    No. 2045), “Defense Trade: Status of the Department of Defense’s Initiatives
    on Defense Cooperation,” July 19, 2000


Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-088, “DoD Involvement in the
    Review and Revision of the Commerce Control List and the U.S. Munitions
    List,” March 23, 2001

    Inspector General, DoD, Report No. D-2001-007, “Foreign National Security
    Controls at DoD Research Laboratories,” October 27, 2000

    Inspector General, DoD, Report No. D-2000-130, “Foreign National Access to
    Automated Information Systems,” May 26, 2000

    Inspector General, DoD, Report No. D-2000-110, “Export Licensing at DoD
    Research Facilities,” March 24, 2000

    Inspector General, DoD, Report No. 99-186, “Review of the DoD Export
    Licensing Processes for Dual-Use Commodities and Munitions,” June 18, 1999




                                        18
Interagency Reviews
    Inspectors General of the Departments of Commerce, Defense, Energy, and
    State, Report No. D-2001-092, “Interagency Review of the Commerce Control
    List and the U.S. Munitions List,” March 23, 2001

    Inspectors General of the Departments of Commerce, Defense, Energy, and
    State, Report No. D-2000-109, “Interagency Review of the Export Licensing
    Process for Foreign National Visitors,” March 24, 2000

    Inspectors General of the Departments of Commerce, Defense, Energy, State,
    and the Treasury and the Central Intelligence Agency, Report No. 99-187,
    “Interagency Review of the Export Licensing Processes for Dual-Use
    Commodities and Munitions,” June 18, 1999




                                     19
Appendix C. Export License Applications
            Processed by DoD
   For FY 2000, DTSA received 23,979 export license applications. DTSA either
   provided a DoD position on the export license applications or disseminated the
   applications to one or more DoD Components for further analysis. The
   following table shows the number of export license applications received by
   DTSA and further disseminated to other DoD Components. The table does not
   show all DoD Components that received export license applications. Also,
   DTSA can disseminate export license applications to multiple DoD Components;
   therefore, the total shown for DTSA will not equal the total of the other DoD
   Components.


    FY 2000 Export License Applications Processed by DoD

     Number of Export
    License Applications                                                     Received at Command
                                                                             Headquarter Level
           30,000

                     23,979
           25,000
                                                                             Disseminated to Other
                                                                             Elements
           20,000          18,829


           15,000

           10,000
                                              5,854           5,829
            5,000               3,933 2,950
                                                                                          2,548
                                                      1,464           874   665 572
                0
                       DTSA         Army        Navy          Air Force     Joint Staff     Defense
                                                                                          Intelligence
                                                                                            Agency




                                              20
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Affairs)
  Deputy Under Secretary of Defense (Policy Integration)
  Deputy Under Secretary of Defense (Technology Security Policy and
    Counter-Proliferation)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Deputy Under Secretary of the Army (International Affairs)
Commanding General, Army Material Command
Auditor General, Department of the Army

Department of the Navy
Director, Navy International Programs Office
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Under Secretary of the Air Force (International Affairs)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Technology Security Administration
Director, U.S. Export Systems Interagency Program Management Office
Director, Defense Intelligence Agency




                                         21
Other Non-Defense Organizations
Office of Management and Budget
Inspector General, Department of Commerce
Inspector General, Department of Energy
Inspector General, Department of State
Inspector General, Department of the Treasury

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Committee on International Relations
House Subcommittee on International Economic Policy and Trade, Committee on
  International Relations
House Permanent Select Committee on Intelligence




                                         22
Deputy Under Secretary of Defense (Policy
Integration) Comments
                                            Final Report
                                             Reference




                                            Revised




                      23
Final Report
 Reference




Revised


Revised




Revised



Revised




Revised




Revised




               24
25
26
Audit Team Members

The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to this report are
listed below.

       Shelton R. Young
       Evelyn R. Klemstine
       Timothy E. Moore
       Michael J. Guagliano
       Jane T. Thomas
       Christine M. McIsaac
       Nadine F. Ramjohn
